IN THE SUPREME COURT OF THE UNITED STATES
Case No. 20-5828

RODERICK CARTER

Petitioner,

CPC LOGISTICS, INC., CPC MEDICAL PRODUCTS, LLC, AND HOSPIRA
FLEET SERVICES, LLC

Respondents.

CERTIFICATE OF SERVICE

The undersigned hereby certifies that a true and correct copy of Respondent’s
Brief in Opposition to Appellant’s Petition for Writ of Certiorari, Respondent’s
Certificate of Compliance with Rule 33, and this Certificate of Service was

electronically filed and sent, via Federal Express, this 25th day of November, 2020 to:

Clerk, Supreme Court of the United States
One First Street, N.E.
Washington D.C. 20543-0001
The undersigned also certifies that a true and correct copy of Respondent’s

Brief in Opposition to Appellant’s Petition for Writ of Certiorari, Respondent’s
Certificate of Compliance with Rule 33, and this Certificate of Service was sent, via

U.S. Mail, First Class, postage prepaid, this 25th day of November, 2020, to:

Roderick Carter
P.O. Box 90237
Columbia, SC 29290

By L LMer ti

Michael F. Harris, Supreme Court Bar No. 313700
Attorney for Respondents CPC Logistics, Inc. and
CPC Medical Products, LLC
